Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




GUIDANCE AND STANDARDS ON
LANGUAGE ACCESS SERVICES:
   MEDICARE PROVIDERS




                   Daniel R. Levinson
                    Inspector General

                      July 2010
                    OEI-05-10-00050
   E X E C U T I V E                                 S U M M A R Y


                  OBJECTIVES
                  1. To determine the extent to which Medicare providers conducted the
                     four-factor assessment recommended by the Office for Civil Rights’
                     (OCR) guidance when determining what language access services to
                     offer.

                  2. To determine the extent to which Medicare providers offered
                     language access services consistent with the Office of Minority
                     Health’s (OMH) Culturally and Linguistically Appropriate Services
                     in Health Care (CLAS) standards on language access services.
                  3. To determine the extent to which Medicare providers realized
                     benefits, including savings, and encountered obstacles to providing
                     language access services.

                  4. To describe costs of providing language access services.


                  BACKGROUND
                  The Medicare Improvements for Patients and Providers Act of 2008
                  (MIPPA) requires that the Office of Inspector General (OIG) conduct a
                  study examining Medicare provider and plan compliance with (1) OCR’s
                  Guidance to Federal Financial Assistance Recipients Regarding Title VI
                  Prohibition Against National Origin Discrimination Affecting Limited
                  English Proficient Persons (hereinafter referred to as OCR guidance)
                  and (2) OMH’s CLAS standards. The MIPPA also requires that OIG
                  describe the costs or savings related to the provision of language access
                  services.

                  Because OCR guidance and CLAS standards are not mandatory, OIG
                  assessed Medicare providers’ voluntary compliance as indicated by the
                  extent to which providers conducted the four-factor assessment
                  recommended by OCR guidance and offered language access services
                  consistent with CLAS standards. A companion report, Guidance and
                  Standards on Language Access Services: Medicare Plans
                  (OEI-05-10-00051), provides the same assessment for Medicare plans.

                  OCR guidance and CLAS standards address the provision of language
                  access services. OCR guidance recommends a four-factor assessment to
                  help determine what language access services to offer. These factors are
                  (1) the number or proportion of Limited English Proficient (LEP)
                  persons eligible to be served or likely to be encountered in the provider’s
                  service population; (2) the frequency with which LEP persons come in

OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   i
E X E C U T I V E                   S U          M M A R Y


                   contact with the provider; (3) the importance, nature, and urgency of the
                   program, activity, or service to people’s lives; and (4) the resources
                   available to the provider and costs for offering language access services.

                   OMH’s CLAS standards can help providers become responsive to the
                   cultural and linguistic needs of diverse populations. Four of the
                   fourteen CLAS standards focus on the provision of language access
                   services. These standards are (1) providing language access services
                   during all business hours, (2) providing verbal offers and written notices
                   of the rights to language access services, (3) assuring the competence of
                   language assistance provided by staff, and (4) providing written
                   materials and signage translated into appropriate languages.
                   Language access services are designed to promote effective
                   communication between LEP persons and non-LEP persons. LEP
                   persons do not speak English as their primary language and have a
                   limited ability to read, write, speak, or understand English. Language
                   access services can include oral interpretation; written translation; and
                   other provisions that enhance communication, such as translated signs.

                   To conduct this review, we administered a survey in 2009 to
                   140 randomly selected Medicare providers located in counties with a
                   high percentage of LEP persons.


                   FINDINGS
                   Sixty-nine percent of providers conducted the four-factor
                   assessment recommended by OCR guidance when determining
                   what language access services to offer. Sixty-nine percent of
                   providers conducted all four factors of the recommended assessment.
                   Further, most providers reported completing some of the factors;
                   84 percent completed at least three of the four factors and 97 percent
                   completed at least one of the factors. The percentages of providers that
                   completed each factor ranged between 78 percent and 94 percent. The
                   factor completed most frequently was assessing available resources.
                   Providers that conducted the assessment were more likely to be familiar
                   with OCR guidance than providers that did not.
                   Only 33 percent of providers offered services consistent with all
                   four CLAS standards on language access services.
                   Ninety-eight percent of providers reported offering some language
                   access services, but only 33 percent offered services consistent with all
                   four CLAS standards on language access services. The percentages of
                   providers that offered services consistent with each standard ranged

 OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   ii
E X E C U T I V E                   S U          M M A R Y


                   between 52 percent and 86 percent. Providers were most likely to offer
                   language access services consistent with the standard regarding
                   assuring the competence of language assistance provided by staff.
                   Providers that offered language access services consistent with all four
                   CLAS standards were more likely to be familiar with them.
                   Seventy-three percent of providers reported benefits to providing
                   language access services and half reported obstacles. The four
                   most frequently reported benefits were (1) improved communication,
                   (2) improved adherence to treatment regimen, (3) improved diagnosis
                   and treatment, and (4) fewer complaints. The three most frequently
                   reported obstacles were (1) a lack of training resources for staff, (2) costs
                   of providing language access services, and (3) the broad range of
                   languages spoken in the providers’ communities.
                   Few providers reported data on the costs of providing language
                   access services and the data provided were not comparable.
                   Because of the overall lack of reporting and the inability to compare data,
                   we were unable to make any determinations about cost data related to
                   providing language access services. Of the 119 providers that responded
                   to the survey, only 49 providers responded to the request for cost data. In
                   addition, provider comments indicated different approaches to calculating
                   costs; therefore, we were unable to compare cost data.


                   RECOMMENDATIONS
                   The MIPPA requires OIG to make recommendations on improving
                   compliance with and enforcement of CLAS standards. However, in
                   keeping with our assessment of voluntary compliance, we make
                   recommendations to increase the percentage of providers that
                   voluntarily offer services consistent with all four CLAS standards on
                   language access services.

                   Providers that offered language access services consistent with the
                   CLAS standards were more likely to be familiar with them. Therefore,
                   to improve Medicare providers’ awareness and implementation of CLAS
                   standards, we recommend that:
                      OCR inform providers about OMH’s CLAS standards.
                      OMH increase outreach to providers to familiarize them with
                       CLAS standards.




 OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   iii
E X E C U T I V E                   S U          M M A R Y


                   In addition, to help Medicare providers offer language access services,
                   we recommend that:
                      OMH offer model translated written materials and signs to
                       providers.


                   AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                   GENERAL RESPONSE
                   OCR and OMH concurred with our recommendations. OMH stated that
                   it will take the lead in developing specific marketing strategies to
                   inform providers of the CLAS standards. CMS indicated that it did not
                   have any substantive comments. However, it did provide technical
                   comments that we incorporated as appropriate.




 OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   iv
   T A B L E          O F            C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
                  Sixty-nine percent of providers conducted the four-factor
                  assessment recommended by OCR guidance when
                  determining what language access services to offer . . . . . . . . . . . . 14

                  Only 33 percent of providers offered services consistent with all
                  four CLAS standards on language access services . . . . . . . . . . . . . 18

                  Seventy-three percent of providers reported benefits to providing
                  language access services and half reported obstacles . . . . . . . . . . . 21

                  Few providers reported data on the costs of providing language
                  access services and the data provided were not comparable. . . . . . 24


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
                    Agencies’ Comments and Office of Inspector General Response . . 27


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                    A: Section 187 of the Medicare Improvements for Patients and
                       Providers Act of 2008 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    B: Culturally and Linguistically Appropriate Services in Health
                       Care Standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

                    C: Categories of Responses to Key Survey Questions. . . . . . . . . . 31

                    D: Estimates and Confidence Intervals. . . . . . . . . . . . . . . . . . . . . 34

                    E: Supplemental Analysis Tables . . . . . . . . . . . . . . . . . . . . . . . . . 40

                    F: Agencies’ Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47
   I N T R O D U C T I O N


                  OBJECTIVES
                  1. To determine the extent to which Medicare providers conducted the
                     four-factor assessment recommended by the Office for Civil Rights’
                     (OCR) guidance when determining what language access services to
                     offer.

                  2. To determine the extent to which Medicare providers offered
                     language access services consistent with the Office of Minority
                     Health’s (OMH) Culturally and Linguistically Appropriate Services
                     in Health Care (CLAS) standards on language access services.
                  3. To determine the extent to which Medicare providers realized
                     benefits, including savings, and encountered obstacles to providing
                     language access services.

                  4. To describe costs of providing language access services.


                  BACKGROUND
                  The Medicare Improvements for Patients and Providers Act of 2008
                  (MIPPA) requires that the Office of Inspector General (OIG) conduct a
                  study examining Medicare provider and plan compliance with (1) OCR’s
                  Guidance to Federal Financial Assistance Recipients Regarding Title VI
                  Prohibition Against National Origin Discrimination Affecting Limited
                  English Proficient Persons (hereinafter referred to as OCR guidance)
                  and (2) OMH’s CLAS standards. 1 The MIPPA also requires that OIG
                  describe the costs or savings related to the provision of language access
                  services. Pursuant to the MIPPA, OIG must issue a report that
                  provides recommendations for improving compliance with and
                  enforcement of CLAS standards. 2 For relevant text of the MIPPA, see
                  Appendix A.

                  Because OCR guidance and CLAS standards are not mandatory, OIG
                  could not assess compliance or make recommendations on the
                  enforcement of CLAS standards. Instead, OIG assessed Medicare
                  providers’ voluntary compliance as indicated by the extent to which
                  providers conducted the four-factor assessment recommended by OCR


                     1 Although the OCR guidance was signed by the then-Director of OCR, it was issued on
                  behalf of the Secretary of Health & Human Services (HHS) and applies to all entities
                  receiving funds from HHS.
                    2 P.L. 110-275 § 187 (July 15, 2008), 42 U.S.C. § 1395cc note.




OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS     1
I N T R O D        U C T       I O N


                    guidance and offered language access services consistent with CLAS
                    standards.

                    This report is one of two issued in response to the MIPPA provision.
                    This report focuses on Medicare providers, such as hospitals and
                    nursing homes, which directly supply heath care services to
                    beneficiaries. A companion report, Guidance and Standards on
                    Language Access Services: Medicare Plans (OEI-05-10-00051), focuses
                    on Medicare plans. Medicare plans are private companies that contract
                    with the Centers for Medicare & Medicaid Services (CMS) to provide
                    health insurance or prescription drug coverage to Medicare
                    beneficiaries.
                    Language Access Services for Limited English Proficient Persons
                    Language access services are designed to promote effective
                    communication between Limited English Proficient (LEP) persons and
                    non-LEP persons. 3 LEP persons do not speak English as their primary
                    language and have a limited ability to read, write, speak, or understand
                    English. 4 According to the U.S. Census Bureau, approximately
                    18 percent of the U.S. population in 2000 spoke languages other than
                    English at home. Further, 8 percent of the U.S. population, or
                    approximately 21 million people, spoke English less than “very well.” 5
                    Language access services may include oral interpretation; written
                    translation; and other provisions that enhance communication, such as
                    translated signs. 6 In providing oral interpretation, providers may
                    choose, for example, to hire bilingual staff, contract with interpreters, or
                    use telephone interpreter lines. When providing written translation,
                    providers have discretion over which materials are translated.
                    However, some materials are more critical than others. 7, 8 These



                      3 OMH, A Patient-Centered Guide to Implementing Language Access Services in
                    Healthcare Organizations, p. 1. Accessed at http://minorityhealth.hhs.gov on
                    January 15, 2010.
                      4 OCR, Guidance, pt. IV, 68 Fed. Reg. 47311, 47313 (Aug. 8, 2003). Accessed at
                    http://www.hhs.gov/ocr on October 21, 2009.
                      5 U.S. Census Bureau, Profile of Selected Social Characteristics: 2000. Accessed at
                    http://factfinder.census.gov on January 15, 2010.
                      6 OMH, Patient-Centered Guide, loc. cit.
                      7 OCR, Guidance, pt. VI at 47316.
                      8 OMH,  National Standards on Culturally and Linguistically Appropriate Services in
                    Health Care Final Report, March 2001, p. 78. Accessed at http://minorityhealth.hhs.gov on
                    February 12, 2010.



 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   2
I N T R O D        U C T       I O N


                    include, but are not limited to, patients’ rights information; medication
                    directions; and screening, diagnosis, or treatment explanations. 9, 10
                    The lack of language access services enables language barriers to
                    persist between LEP persons and non-LEP persons. The inability to
                    communicate with a provider can lead to ineffective care because
                    providers are unable to elicit an LEP person’s symptoms, making it
                    difficult to render a proper diagnosis and course of treatment. 11
                    Research indicates that LEP persons are more likely than non-LEP
                    persons to report being in fair or poor health, defer medical care, miss
                    followup appointments, and experience drug complications. 12, 13 LEP
                    patients are also more likely than non-LEP patients to experience
                    adverse events because of a communication failure. 14
                    Title VI of the Civil Rights Act
                    Title VI of the Civil Rights Act of 1964, as amended, provides that no
                    person in the United States shall “on the ground of race, color, or
                    national origin, be excluded from participation in, be denied the benefits
                    of, or be subjected to discrimination under any program or activity
                    receiving Federal financial assistance.” 15 The Supreme Court has
                    interpreted the Title VI implementing regulation to find that conduct
                    with a disproportionate effect on LEP persons had a discriminatory
                    impact on the basis of national origin. 16
                    OCR Oversight of Title VI Compliance
                    OCR is the civil rights law enforcement agency for HHS. As such, it
                    ensures that all recipients of Federal financial assistance through HHS
                    operate their programs in compliance with Federal civil rights laws.

                      9 OCR, Guidance, pt. VI at 47316.
                      10 OMH, National Standards, loc. cit.
                      11 Leighton Ku and Glenn Flores, “Pay Now Or Pay Later: Providing Interpreter
                    Services in Health Care,” Health Affairs. March/April 2005. Vol. 24, No. 2. Accessed at
                    http://content.healthaffairs.org on February 26, 2010.
                      12 Bradford Kirkman-Liff and Delfi Mondragón, “Language of Interview: Relevance for
                    Research on Southwest Hispanics,” American Journal of Public Health. November 1991.
                    Vol. 81, No. 11. Accessed at http://ajph.aphapublications.org/ on February 26, 2010.
                      13 Glenn Flores et al., “Access Barriers to Health Care for Latino Children,”         Archives of
                    Pediatrics & Adolescent Medicine. November 1998. Vol. 152. Accessed at
                    http://archpedi.ama-assn.org/ on February 26, 2010.
                       14 The Joint Commission, Language Proficiency and Adverse Events in U.S. Hospitals: A
                    Pilot Study, February 2010. Accessed at http://www.jointcommission.org on
                    February 22, 2010.
                      15 P.L. 88-352 § 601; 42 USC § 2000d.
                      16 Lau v. Nichols. 414 U.S. 563 (1974).




 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS                 3
I N T R O D        U C T       I O N


                    Federal financial assistance includes grants, training, use of equipment,
                    donation of surplus property, and other assistance. It does not include
                    Medicare Part B payments to physicians. 17
                    OCR conducts civil rights reviews of all new Medicare provider
                    applicants that receive Federal financial assistance. OCR also conducts
                    these reviews when there is a change of ownership. During these
                    reviews, OCR certifies that providers have plans in place to operate
                    their programs in accordance with, among other laws, Title VI. 18
                    According to OCR staff, OCR completed 2,385 civil rights reviews in
                    fiscal year (FY) 2009. Alternatively, corporations with multiple
                    facilities may enter into corporate agreements with OCR. In these
                    cases, OCR conducts reviews of the corporate policies that apply to all
                    corporate facilities rather than reviewing each facility. OCR had
                    24 corporate agreements in effect in 2009.

                    In addition, OCR investigates complaints of discrimination. According
                    to OCR staff, of the 17 complaints concerning LEP persons received in
                    FY 2009, 6 complaints involved Medicare providers. If OCR
                    investigates and determines that discrimination has occurred, a
                    provider usually has 60 days to correct the violation or provide OCR
                    with a plan of correction. 19 OCR staff stated that they strive for
                    voluntary compliance and resolution in all cases as required by Title VI.
                    Accordingly, complaints are often voluntarily resolved through an
                    exchange of letters containing requirements for improvement.

                    Further, OCR encourages compliance with Title VI by providing
                    technical assistance and training. 20 OCR provided technical assistance
                    and training to more than 95,000 individuals in FY 2009. 21 This
                    technical assistance included telephone consultations, written
                    correspondence, and in-person presentations at conferences, as well as
                    meetings with advocacy groups and organizations receiving HHS
                    financial assistance. In addition, OCR collaborates with organizations,
                    such as the American Hospital Association and the Joint Commission,

                      17 45 CFR § 80, App. A.; 45 CFR § 80.2.
                      18 OCR, Nondiscrimination Laws, Regulations,                and Standards. Accessed at
                    http://www.hhs.gov/ocr/ on February 25, 2010.
                      19 OCR, How Does OCR Investigate a Civil Rights Complaint? Accessed at
                    http://www.hhs.gov/ocr on February 25, 2010.
                      20 OCR, Guidance, pt. VIII at 47321.
                      21 OCR, Fiscal Year 2011 Online Performance                Appendix. Accessed at
                    http://www.hhs.gov/ocr/ on April 12, 2010.



 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS      4
I N T R O D        U C T       I O N


                    to develop training materials to help providers respond to LEP persons’
                    communication needs.
                    OCR Guidance for Determining What Language Access Services To Offer
                    In August 2000, OCR, on behalf of the Secretary of HHS, issued
                    guidance specifically concerning discrimination affecting LEP persons. 22
                    The guidance was issued in response to an August 2000 Executive
                    Order requiring Federal agencies to clarify and publish guidance on
                    Title VI requirements. 23 The original guidance was republished in
                    February 2002, seeking public comment. 24 In 2003, after receiving
                    public comments and subsequent guidance from the U.S. Department of
                    Justice, OCR issued revised guidance. 25
                    OCR guidance applies to all providers receiving HHS financial
                    assistance, including hospitals, nursing homes, and home health
                    agencies, among others. It does not apply to physicians solely
                    reimbursed for services under Medicare Part B, per Title VI
                    regulations. 26
                    OCR guidance is meant to assist recipients of HHS financial assistance
                    in ensuring meaningful access for LEP persons to critical services while
                    not imposing an undue burden. OCR guidance does not carry the force
                    of law and is not mandatory. 27
                    OCR guidance recommends that each recipient of HHS financial
                    assistance determine what language access services to offer by
                    conducting a four-factor assessment. The four factors are: 28
                        (1) the number or proportion of LEP persons eligible to be served or
                            likely to be encountered in the recipient’s service population;

                        (2) the frequency with which LEP persons come in contact with the
                            recipient;

                        (3) the importance, nature, and urgency of the program, activity, or
                            service to people’s lives; and


                      22 65 Fed. Reg. 52762 (Aug. 30, 2000).
                      23 Executive Order 13166, “Improving Access to Services for Persons with Limited
                    English Proficiency,” 65 Fed. Reg. 50121 (Aug. 16, 2000).
                      24 67 Fed. Reg. 4968 (Feb. 1, 2002).
                      25 OCR, Guidance, introduction at 47311.
                      26 Ibid., pt. III at 47313.
                      27 Ibid., pt. III at 47313, footnote 2.
                      28 Ibid., pt. V at 47314.




 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   5
I N T R O D        U C T       I O N


                        (4) the resources available to the recipient and costs for offering
                            language access services.

                    After conducting the four-factor assessment, recipients have discretion
                    to determine what language access services to offer. In some cases,
                    offering language access services may not be necessary to comply with
                    Title VI.29 However, this discretion does not diminish, and should not
                    be used to minimize, recipients’ obligation to address the needs of LEP
                    persons.30
                    OMH’s CLAS Standards
                    In 2001, OMH created the CLAS standards to provide consistent and
                    comprehensive guidance to promote cultural and linguistic competence
                    in health care. As is OCR guidance, the CLAS standards are not
                    mandatory.31
                    OMH divided the standards into three categories: Culturally
                    Competent Care (standards 1–3), Language Access Services
                    (standards 4–7), and Organizational Supports for Cultural Competence
                    (standards 8–14).32 For a list of all 14 CLAS standards, see Appendix B.
                    The four Language Access Services standards are:33

                    Standard 4. 	Health care organizations must offer and provide language
                                 assistance services, including bilingual staff and
                                 interpreter services, at no cost to each patient/consumer
                                 with limited English proficiency at all points of contact, in
                                 a timely manner during all hours of operation.

                    Standard 5. 	Health care organizations must provide to
                                 patients/consumers in their preferred language both verbal
                                 offers and written notices informing them of their right to
                                 receive language assistance services.

                    Standard 6. 	Health care organizations must assure the competence of
                                 language assistance provided to limited English proficient
                                 patients/consumers by interpreters and bilingual staff.


                      29 OCR, Guidance, pt. V at 47314.

                      30 Ibid. 

                      31 According to OMH officials, the four Language Access Services standards are not 

                    mandatory despite language stating that they are Federal requirements and that health
                    care organizations “must” provide the services noted in each of the four standards.
                      32 OMH, Standards, p. 3.
                      33 Ibid., pp. 1013.




 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS    6
I N T R O D        U C T       I O N


                                           Family and friends should not be used to provide
                                           interpretation services (except on request by the
                                           patient/consumer).

                    Standard 7. 	Health care organizations must make available easily
                                 understood patient-related materials and post signage in
                                 the languages of the commonly encountered groups and/or
                                 groups represented in the service area.

                    OMH staff offer training and educational resources related to CLAS
                    standards to providers through the Center for Cultural and Linguistic
                    Competence in Health Care (the Center).34 Established in FY 1995,
                    the Center was OMH’s response to the Disadvantaged Minority
                    Health Improvement Act of 1990 and encouragement from Congress
                    to establish a center to develop and evaluate models, conduct
                    research, and provide technical assistance to providers on removing
                    language barriers to health care services.35
                    Through the Center, OMH offers training and educational resources
                    related to the provision of language access services. This includes
                    accredited training programs for physicians, nurses, and disaster
                    personnel on cultural competency through e-learning programs. OMH
                    also publishes A Patient-Centered Guide to Implementing Language
                    Access Services in Healthcare Organizations, which was designed to
                    help health care administrators and organizations comply with Title VI
                    and implement the CLAS standards.36 In addition, OMH distributes an
                    e-newsletter that is geared toward all persons interested in cultural
                    competency in health care settings.
                    Reimbursement for Language Access Services
                    Limited reimbursement is available for language access services.
                    Medicare does not reimburse providers for language access services. On
                    the other hand, State Medicaid Programs and Children’s Health
                    Insurance Programs can, as an optional benefit, access Federal
                    matching funds to reimburse for language access services.37 In 2009,


                      34 OMH, About the Center for Cultural and Linguistic Competence in Health Care.
                    Accessed at http://minorityhealth.hhs.gov/ on March 8, 2010.
                      35 H.R. Rep. No. 103-553, at 54 (1994).
                      36 OMH, A Patient-Centered Guide to Implementing   Language Access Services in
                    Healthcare Organizations. Accessed at http://www.thinkculturalhealth.org on
                    February 1, 2010.
                      37 42 U.S.C. § 1396b(a)(2)(E); 42 U.S.C. § 1397ee(a)(1)(D).




 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   7
I N T R O D        U C T       I O N


                    13 States and the District of Columbia used this optional benefit to
                    reimburse providers or interpreters.38 In addition, a national survey of
                    hospitals in the United States found that only 3 percent of hospitals
                    receive reimbursement for providing language access services.39
                    Related Work
                    In 2007, the Joint Commission found that there was still a gap between
                    current practice and the CLAS standards among a purposive sample of
                    hospitals selected for their advanced provision of culturally and
                    linguistically appropriate care. Ninety percent of sampled hospitals
                    cited funding services as a challenge to providing language access
                    services.40


                    METHODOLOGY
                    To conduct this review, we collected information, in 2009, through a
                    survey of randomly selected Medicare providers located in counties with a
                    high percentage of LEP persons. OCR and OMH staff provided additional
                    context through structured interviews.
                    Scope
                    The MIPPA mandates that OIG report on Medicare providers’ and
                    plans’ compliance with OCR guidance and CLAS standards. However,
                    because OCR guidance and CLAS standards are not mandatory, HHS
                    lacks authority to enforce them. Therefore, we assessed providers’
                    voluntary compliance as indicated by the extent to which they
                    conducted the four-factor assessment recommended by OCR guidance
                    and offered language access services consistent with CLAS standards.
                    This study focused on CLAS Standards 4–7, which OMH designated as
                    the Language Access Services standards.

                    This study focused on the types of Medicare providers uniformly subject
                    to Title VI. For this reason, we excluded Medicare Part B providers.
                    We also limited our analysis to providers located in counties with a high
                    percentage of LEP persons to increase the likelihood that sampled


                      38 Families USA, Improving Language Access: CHIPRA Provides Increased Funding For
                    Language Services. Accessed at http://www.familiesusa.org on March 15, 2010.
                      39 The Health Research and Educational Trust,  Hospital Language Services for Patients
                    with Limited English Proficiency: Results from a National Study, October 2006. Accessed
                    at http://www.hret.org on February 12, 2010.
                      40 The Joint Commission, Hospitals, Language, and Culture: A Snapshot of the Nation,
                    2007. Accessed at http://www.jointcommission.org on February 12, 2010.



 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS    8
I N T R O D        U C T       I O N


                    providers needed to offer language access services. Medicare plans are
                    covered in a companion report.

                    Finally, we broadened the definition of costs and savings to include
                    nonfinancial obstacles and benefits.
                    Sample
                    Provider sampling frame. We created a sampling frame of providers
                    located in counties with a high percentage of LEP persons. To do this,
                    we used 2000 decennial Census data and demographic data contained in
                    CMS’s Online Survey Certification and Reporting (OSCAR) system as of
                    October 2009.41, 42 First, we used the Census data to rank counties by
                    the percentage of residents who answered anything other than “very
                    well” when asked how well they speak English. We selected the
                    10 percent of counties with the highest percentage of these LEP
                    persons. Together, the 313 selected counties, representing 37 States,
                    contained 72 percent of LEP persons residing in the United States.
                    These LEP persons represented between 9 percent and 51 percent of all
                    county residents in each of the selected counties. Then, we used the
                    OSCAR data to identify Medicare providers located in the selected
                    counties. We identified 16,853 providers in the sampling frame.

                    Sample selection. After creating the sampling frame of
                    16,853 providers, we selected a simple random sample of
                    145 providers.43 The sample consisted of 14 provider types, including
                    hospitals, skilled nursing facilities, and home health agencies. After
                    selecting the sample, we excluded one provider because of an ongoing
                    OIG investigation and four additional providers because they were no
                    longer in business. The final sample consisted of 140 providers.
                    Data Collection
                    Survey. We mailed the survey to the sample of 140 providers in
                    December 2009. We made at least two followup attempts by telephone
                    and one by signature-required certified mail. Data collection lasted


                      41 The U.S. Census Bureau’s 2000 decennial Census has the most recent data on all
                    counties for the same year.
                       42 OSCAR contains survey results from certification and complaint surveys for all
                    Medicare providers receiving Federal financial assistance. As such, it contains location
                    information on all of these providers.
                      43 This sample design enabled us to estimate the percentage of providers with certain
                    characteristics with +/- 10-percent precision at the 95-percent confidence level assuming a
                    75-percent response rate and assuming that 7 percent would be excluded because of ongoing
                    OIG investigations.



 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS      9
I N T R O D        U C T       I O N


                    through January 2010. Of the 140 providers, 119 responded to the
                    survey, for an overall response rate of 85 percent. However, providers
                    did not always answer every question; therefore, item response rates
                    may be lower. No item response rate was less than 79 percent.

                    Structured interviews. In January 2010, we conducted separate
                    structured interviews with OCR and OMH staff to obtain background
                    information. We interviewed OCR staff about their role and activities
                    related to Title VI enforcement, OCR guidance, and the types of
                    technical assistance OCR provided for language access services. We
                    interviewed OMH staff about their activities related to CLAS standards.
                    Data Analysis
                    To analyze providers’ survey responses, we calculated response category
                    frequencies for the key questions related to whether providers
                    conducted the four-factor assessment recommended by OCR guidance
                    and whether providers offered language access services consistent with
                    all four CLAS standards on language access services. We also analyzed
                    the percentage of providers that completed each individual factor of the
                    four-factor assessment and offered language access services consistent
                    with each of the four standards.

                    We considered a provider to have conducted the four-factor assessment
                    if the provider indicated at least one activity corresponding with each of
                    the four factors. Table 1 lists each of the four factors and the
                    corresponding survey question. See Appendix C for the categories of
                    responses to each question.




 OEI-05-10-00050    GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   10
NTRODUCT                        o N

                  Table 1: OCR Four Factors and Corresponding Survey
                  Questions
                   Four Factors in OCR Guidance                              Corresponding Question in Survey of Providers



                   Factor 1: The number or proportion of LEP          Which of the following sources of information does your
                   persons eligible to be served or likely to be      organization use to determine the number or proportion
                   encountered in the recipient's service             of LEP persons from each language group represented
                   population                                                                  in its geographic service area?



                                                                      Which of the following sources of information does your
                   Factor 2: The frequency with which LEP
                                                                       organization use to track how often it encounters LEP
                   persons come into contact with the recipient
                                                                                                                    persons?



                                                                          When determining whether to communicate to LEP
                   Factor 3: The importance, nature, and
                                                                               persons in their preferred language, does your
                   urgency of the program, activity, or service to
                                                                         organization consider the importance and urgency of
                   people's lives
                                                                            the activity, program, or service to people's lives?



                   Factor 4: The resources available to the                  How does your organization assess whether it has
                   recipient and costs for offering language                   resources available to provide language access
                   access services                                                                                   services?


                   Source: OCR guidance and OIG survey of providers, 2010.



                  Similarly, we considered a provider to have offered language access
                  services consistent with CLAS standards if the provider indicated
                  activities meeting each ofthe four standards. For Standards 4, 6, and 7,
                  we considered a provider to have offered language access services
                  consistent with the standard if it indicated at least one activity
                  corresponding with each of the survey questions about these standards.
                  For Standard 5, providers needed to indicate at least two activities-one
                  associated with verbal notification of rights and another associated with
                  written notification. Table 2 lists the four CLAS standards on language
                  access services and the corresponding survey question(s). See
                  Appendix C for the categories of responses to each question.




OEI·05·10·00050   GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:          MEDICARE PROVIDERS                  11
NTRODUCT                        ON



                  Table 2: CLAS Standards and Corresponding Survey Questions

                                                                                 Corresponding Questions in Survey of
                   CLAS Standards on Language Access Services
                                                                                                            Providers




                   Standard 4: Health care organizations must offer and
                   provide language assistance services, including
                                                                                          During what percentage of your
                   bilingual staff and interpreter services, at no cost to
                                                                                        organization's business hours are
                   each patienUconsumer with limited English proficiency
                                                                                       language access services offered?
                   at all points of contact, in a timely manner during all
                   hours of operation.




                   Standard 5: Health care organizations must provide to               Does your organization inform LEP
                   patients/consumers in their preferred language both           persons of their right to receive language
                   verbal offers and written notices informing them of their            access services in their preferred
                   right to receive language assistance services.                  language in any of the following ways?




                   Standard 6: Health care organizations must assure
                   the competence of language assistance provided to
                                                                                     Which of the following training topics
                   limited English proficient patients/consumers by
                                                                                   does your organization require for staff,
                   interpreters and bilingual staff. Family and friends
                                                                                             contractors, and volunteers?
                   should not be used to provide interpretation services
                   (except on request by the patienUconsumer).




                                                                                   Which of the following written materials
                                                                                      are translated into the languages of
                   Standard 7: Health care organizations must make                       commonly encountered groups?
                   available easily understood patient-related materials
                   and post signage in the languages of the commonly
                   encountered groups and/or groups represented in the
                   service area.                                                  Which of the following types of signs are
                                                                                    posted in the languages of commonly
                                                                                                     encountered groups?


                   Source: CLAS standards and OIG survey of providers, 2010.



                  The survey had two questions related to CLAS Standard 7 to
                  distinguish between patient-related materials and signs. Ten percent of
                  providers responded "Not applicable" to the survey question related to
                  posting signs. Upon review of the provider types, we concluded that this
                  was a reasonable response for specific providers, such as home health
                  agencies, and counted these providers as having offered language access
                  services consistent with CLAS Standard 7 if they indicated only
                  activities related to translating written materials.




OEI·05·10·00050   GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:          MEDICARE PROVIDERS                  12
INTRODUCTION



                  We used the results of the response category frequencies for the CLAS
                  standards to determine whether one standard was completed more or
                  less frequently than any other standard. We used the Bonferroni
                  method of multiple comparisons to determine whether any noted
                  differences were statistically significant. A difference was statistically
                  significant if the confidence interval of the difference did not contain
                  zero using an alpha ofO.O!.
                  Where possible, we calculated frequencies and ranges on the key
                  questions related to costs, savings, nonfinancial obstacles, and benefits.
                  We also reviewed providers' comments about how they calculated cost
                  data to determine the extent to which the reported costs were
                  comparable.
                  Unless noted, we projected survey statistics to all 16,853 Medicare
                  providers located in the 313 counties with a high percentage ofLEP
                  persons. See Appendix D for a list of 95"percent confidence intervals for
                  all statistical projections.
                  Data Limitations
                  This report relies on self"reported data. We did not verify providers'
                  responses.
                  Because populations may shift, the 2000 decennial Census data may not
                  exactly reflect the counties with the highest percentage of LEP persons
                  in 2009, when the sample was selected. However, they were the most
                  recent data available for all counties in the same year.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspections approved by the Council of the Inspectors General on
                  Integrity and Efficiency.




OEI·05·10·00050   GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:   MEDICARE PROVIDERS   13
      F I N D I N G S

 Sixty-nine percent of providers conducted the             Sixty-nine percent of Medicare
four-factor assessment recommended by OCR                  providers in counties with a high
    guidance when determining what language                percentage of LEP persons
                                                           considered all four factors of the
                        access services to offer
                                                           recommended assessment. As
                     noted previously, OCR guidance is not mandatory. Rather, it is
                     guidance that providers may use to ensure meaningful access for LEP
                     persons to critical services while not imposing an undue burden on
                     small providers.
                     Providers that conducted the recommended four-factor assessment were
                     more likely to be familiar with the OCR guidance. 44 Specifically,
                     85 percent of providers that conducted the assessment reported being
                     familiar with the guidance. In contrast, only 40 percent of providers
                     that did not conduct the assessment reported being familiar with the
                     guidance.

                     Even though 31 percent of providers did not consider all four factors,
                     almost all providers considered some of these factors. Eighty-four
                     percent of providers considered at least three of the four factors and
                     97 percent considered at least one of the factors. Chart 1 illustrates the
                     extent to which providers considered the four factors.




                       44 The difference is statistically significant at the 95-percent confidence level.




   OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   14
F   I N D I N G        S




Chart 1: Number
        of Factors                                                              Completed no
                                                           Completed one         factors, 3%
    Completed, by                                            factor, 4%
    Percentage of
         Providers                         Completed two
                                            factors, 9%



                                   Completed three
                                    factors, 15%




                                                                                                  Completed all four
                                                                                                      factors,
                                                                                                        69%



                      Source: OIG analysis of provider survey responses, 2010.




                      When the factors are reviewed individually, the factor completed most
                      frequently was Factor 4, assessing available resources. Table 3 lists the
                      four factors and the percentage of providers that reported completing
                      each factor.


                      Table 3: OCR Four Factors and Percentage of Providers
                      Completing Each Factor

                        Four Factors in OCR Guidance                                                Percentage of Providers


                        Factor 1: The number or proportion of LEP persons eligible to
                        be served or likely to be encountered in the recipient’s service                               78%
                        population


                        Factor 2: The frequency with which LEP persons come in
                                                                                                                       80%
                        contact with the recipient


                        Factor 3: The importance, nature, and urgency of the program,
                                                                                                                       92%
                        activity, or service to people’s lives


                        Factor 4: The resources available to the recipient and costs for
                                                                                                                       94%
                        offering language access services

                        Source: OCR guidance and OIG analysis of provider survey responses, 2010.


    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS             15
F   I N D I N G        S


                      Seventy-eight percent of providers reported determining the number or
                      proportion of LEP persons in their service areas
                      Corresponding to the first factor in OCR guidance, 78 percent of
                      providers reported determining the number or proportion of LEP
                      persons represented in their geographic service areas. The greater the
                      number or proportion of LEP persons, the greater the likelihood that
                      language access services are needed.

                      Providers reported determining the number or proportion of LEP
                      persons represented in their service areas using a variety of information
                      sources, as listed in Table 4.
                      Table 4: Sources Providers Reported Using To Determine
                      Number of LEP Persons

                       Sources*                                                                               Percentage of Providers

                       Patient utilization data                                                                                  61%

                       Census data                                                                                               45%

                       Community assessments conducted by their organizations                                                   31%

                       Medicare data                                                                                             30%

                       County or State health status reports                                                                     24%

                       Community assessments conducted by community organizations                                               15%

                       School enrollment data                                                                                     7%
                       *Choices are not mutually exclusive.

                       Source: OIG analysis of provider survey responses, 2010.



                      OCR guidance states that providers should first rely on their data from
                      prior experiences with LEP encounters to determine the number of LEP
                      persons in their geographic service areas. It also recommends that
                      providers refine this assessment using other data sources. Seventy-one
                      percent of providers that reported determining the number of LEP
                      persons used multiple data sources. Providers relied primarily on
                      patient utilization data, supplemented with other sources, to determine
                      the number of LEP persons in their service areas. Only 17 percent of
                      providers reported using patient utilization data as their only source.

                      Although 78 percent of providers reported determining the number of
                      LEP persons in their service areas, only 46 percent reported that they
                      monitor changes in the LEP population. Even though OCR guidance
                      does not recommend that providers monitor demographic changes, it
                      does note that a recipient’s LEP plan may require annual reevaluation

    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS                16
F   I N D I N G        S


                      of changes in demographics. Assessing data for shifts in the LEP
                      population can help ensure that providers remain up-to-date on
                      language needs in their service areas. Only 34 percent of providers
                      reported monitoring changes in the LEP population annually. An
                      additional 10 percent reported monitoring changes every 5 years and 2
                      percent reported monitoring changes every 10 years.
                      Eighty percent of providers reported determining the frequency of contact
                      with LEP persons
                      Corresponding to the second factor in OCR guidance, 80 percent of
                      providers reported determining the frequency with which they
                      encountered LEP persons. The more frequent the contact with a
                      particular language group, the more likely that language access services
                      in that language are needed.

                      Providers reported collecting data on encounters with LEP persons
                      primarily from two sources. Sixty-four percent of providers reported
                      using data from patient databases and 62 percent reported using data
                      from patient medical records. Forty-nine percent used both sources.
                      Ninety-two percent of providers reported considering the situation when
                      determining what language access services to provide or reported offering
                      services in all situations
                      Ninety-two percent of providers reported activities that correspond to
                      the third factor in OCR guidance for determining the importance of
                      language access services. This factor recommends that providers
                      determine whether denial or delay of services or information because of
                      a lack of language access services could have serious implications for
                      LEP persons. To that end, 15 percent of providers reported assessing
                      the importance and urgency of their programs, activities, and services.
                      An additional 77 percent reported offering language access services in
                      all types of situations regardless of importance and urgency, in which
                      case determining the importance and urgency is no longer necessary.
                      Ninety-four percent of providers reported assessing the available resources
                      Almost all providers reported assessing available financial, material,
                      and staff resources when determining what language access services to
                      offer; such an assessment corresponds to the fourth factor in OCR
                      guidance. Providers may use information about available resources to
                      help them balance costs and benefits when deciding what language
                      access services to offer. See Table E-1 in Appendix E for a list of the
                      available resources that providers reported assessing.



    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   17
F    I N D I N G        S



    Only 33 percent of providers offered services             Ninety-eight percent of providers
                                                              in counties with a high percentage
     consistent with all four CLAS standards on
                                                              of LEP persons reported offering
                       language access services
                                                              some language access services, but
                       only 33 percent offered services consistent with all four of OMH’s CLAS
                       standards on language access services. As noted previously, CLAS
                       standards are not mandatory. Rather, they are a resource that
                       providers can use when developing their language access services.
                       Providers that offered language access services consistent with all four
                       CLAS standards were more likely to be familiar with these standards. 45
                       Specifically, 82 percent of providers that offered language access
                       services consistent with all four standards reported being familiar with
                       the standards. In contrast, only 55 percent of providers that offered
                       language access services that were not consistent with all four CLAS
                       standards reported being familiar with the standards.

                       When the standards are reviewed individually, providers were most
                       likely to offer language access services consistent with the standard
                       about assuring the competence of language assistance provided by staff
                       as opposed to the standards stating that services must be available
                       during all business hours, that patients must be informed of their rights
                       both verbally and in writing, and that written materials and signage
                       should be translated into appropriate languages. 46 See Table 5 for each
                       of the four CLAS standards on language access services and the
                       percentage of providers that reported offering services consistent with
                       each standard.




                         45 The difference is statistically significant at the 95-percent confidence level.
                         46 The difference is statistically different from other standards at the 95-percent
                       confidence level in a multiple comparison test using a Bonferroni threshold of 0.01.



     OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   18
F   I N D I N G        S


                      Table 5: CLAS Standards and Percentage of Providers Offering
                      Services Consistent With Each Standard


                                                                                                              Percentage of
                       CLAS Standards on Language Access Services
                                                                                                                  Providers




                       Standard 4: Provide language assistance services at no cost to each patient
                       with limited English proficiency at all points of contact, in a timely manner during            64%
                       all hours of operation.



                       Standard 5: Provide to patients in their preferred language both verbal offers
                       and written notices informing them of their right to receive language assistance                52%
                       services.



                       Standard 6: Assure the competence of language assistance provided. Family
                       and friends should not be used to provide interpretation services (except on                    86%
                       request by the patient).



                       Standard 7: Make available easily understood patient-related materials and
                       post signage in the languages of the commonly encountered groups in the                         71%
                       service area.


                       Source: CLAS standards and OIG analysis of provider survey responses, 2010.



                      Sixty-four percent of providers reported offering language access services
                      during all business hours
                      Consistent with CLAS Standard 4, 64 percent of providers reported
                      offering some type of language access services during all hours of
                      operation. Further, 15 percent of providers offered language access
                      services during more than half but less than all of their business hours.
                      Fifty-two percent of providers reported informing LEP persons both verbally
                      and in writing of their right to receive language access services
                      Consistent with CLAS Standard 5, 52 percent of providers reported
                      informing LEP persons verbally and in writing of their right to receive
                      language access services. However, 23 percent of providers reported
                      notifying LEP persons only verbally at check-in. Fifteen percent of
                      providers reported notifying LEP persons only in writing of their right
                      to receive language access services. Providers informed LEP persons in
                      writing either through translated handouts or signs.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS      19
F   I N D I N G        S


                      Eighty-six percent of providers reported requiring training for staff,
                      contractors, and volunteers on language access services
                      Consistent with CLAS Standard 6, 86 percent of providers reported
                      requiring training for staff, contractors, and volunteers on language
                      access services. See Table E-2 in Appendix E for a list of the training
                      topics that providers reported requiring for staff, contractors, and
                      volunteers.

                      This standard also recommends that family and friends not be used as
                      interpreters except when requested by the patient. Further, this
                      standard states that minor children should never be used as
                      interpreters or be allowed to interpret for their parents when they are
                      the patients. Seventy percent of providers required training for staff,
                      contractors, and volunteers on the use of family and friends as
                      interpreters. In particular, 28 percent of providers required training on
                      the use of minor children as interpreters. 47
                      Although most providers reported requiring training for staff,
                      contractors, and volunteers on language access services, only 39 percent
                      reported formally testing them on their skills and competencies in
                      providing language access services. CLAS Standard 6 mentions formal
                      testing as a way to assure the competence of language assistance
                      provided by staff. See Table E-3 in Appendix E for a list of the topics
                      providers reported covering on formal tests.
                      Seventy-one percent of providers reported translating materials and posting
                      signs in the languages of commonly encountered groups
                      Consistent with CLAS Standard 7, 71 percent of providers reported
                      translating written materials and posting signs in the languages of
                      commonly encountered groups.

                      Materials. Eighty-nine percent of providers reported translating at least
                      one type of patient-related written material into the languages of
                      commonly encountered groups. Further, 88 percent of providers
                      reported translating at least one critical document as outlined by OCR
                      guidance and CLAS standards as documents that are particularly
                      important to translate. These documents include, but are not limited to,
                      patients’ rights information; medication directions; and screening,
                      diagnosis, and treatment explanations. However, only 8 percent of
                      providers translated all critical documents. See Table E-4 in


                        47 Choices are not mutually exclusive.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   20
F   I N D I N G        S


                      Appendix E for a complete list of materials that providers reported
                      translating.

                      Signs. Seventy-nine percent of providers either reported posting
                      translated signs or reported that posting signs was not applicable to
                      their organizations. Signs should provide notices of patient rights, the
                      conflict and grievance process, and directions to facility services.
                      Specifically, 68 percent of providers reported posting signs in the
                      languages of commonly encountered groups. An additional 10 percent of
                      providers reported that posting signs was not applicable to their
                      organizations. 48 See Table E-5 in Appendix E for a list of signs that
                      providers reported posting in commonly encountered languages.



   Seventy-three percent of providers reported               Seventy-three percent of providers
benefits to providing language access services               reported benefits to providing
                    and half reported obstacles              language access services. The
                                                             four most frequently reported
                      benefits were (1) improved communication, (2) improved adherence to
                      treatment regimen, (3) improved diagnosis and treatment, and (4) fewer
                      complaints. See Table 6 for a list of benefits that providers reported.




                        48 Percentages do not add to 79 percent because of rounding.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   21
F   I N D I N G        S


                      Table 6: Benefits Reported by Providers

                       Benefits*                                                                              Percentage of Providers


                       Improved communication                                                                                    66%

                       Improved adherence to treatment regimen                                                                  58%

                       Improved diagnosis and treatment                                                                          51%

                       Fewer complaints                                                                                          51%

                       Fewer adverse events and medical errors                                                                  45%

                       Fewer emergency visits                                                                                    26%

                       Reduced length of patient visits                                                                         22%

                       Improved billing and collections                                                                         20%

                       Fewer facility readmissions                                                                              17%

                       Reduced length of facility stays                                                                         12%

                       Financial savings                                                                                          2%

                       *Choices are not mutually exclusive.
                       Source: OIG analysis of provider survey responses, 2010.




                      Very few providers reported financial savings from providing language
                      access services. In fact, only 2 percent of providers reported that they
                      saved money by providing language access services. Fifty-three percent
                      of providers reported that they did not know whether they saved any
                      money. One provider explained that savings because of a reduction in
                      unnecessary tests, visits, and emergency room usage are difficult to
                      measure while direct costs, such as those for interpreters, are
                      measurable.
                      Fifty-four percent of providers reported obstacles to providing language
                      access services
                      Fifty-four percent of providers reported obstacles to providing language
                      access services, including such things as (1) a lack of training resources
                      for staff, (2) costs of providing language access services, and
                      (3) the broad range of languages spoken in the providers’ communities.
                      See Table 7 for a list of obstacles reported.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS                22
F   I N D I N G        S


                      Table 7: Obstacles Reported by Providers

                       Obstacles*                                                                             Percentage of Providers


                       Lack of training resources for staff                                                                      32%

                       Cost of providing language access services                                                               27%

                       Broad range of languages spoken in community                                                             26%

                       Liability concerns                                                                                        21%

                       Lack of staffing                                                                                          18%

                       Staff discomfort in providing language access services                                                   14%

                       Lack of means for staff to identify LEP persons                                                            6%

                       *Choices are not mutually exclusive.
                       Source: OIG analysis of provider survey responses, 2010.



                      Twenty-seven percent of providers reported cost as an obstacle.
                      Providers may perceive costs to be an obstacle because they may not see
                      savings that would offset their investment in providing language access
                      services. Most providers bear the full cost of providing language access
                      services. Only 3 percent reported receiving direct reimbursement for
                      providing these services. Providers reported that these reimbursements
                      were received from Medicaid and State or local governments.

                      Forty-five percent of providers reported that it would be useful to have
                      additional assistance in overcoming obstacles and implementing
                      language access services. In responding to the survey, these providers
                      wrote in specific requests for assistance. These requests were, in
                      general, for additional information, training, and financial assistance
                      for providing language access services.

                      Specifically, information requests included such things as
                      already-translated documents or the names of organizations that
                      provide cost-effective translation and interpretation. Providers were
                      interested particularly in resources within their communities. Another
                      suggestion providers made was that models of language service
                      provision be made available.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS                23
F   I N D I N G        S




Few providers reported data on the costs of               Because of the overall lack of
                                                          reporting and the inability to
providing language access services and the
                                                          compare data, we were unable to
        data provided were not comparable
                                                          make any determinations about cost
                      data related to language access services.
                      Of the 119 providers that responded to the survey, only 49 providers
                      responded to the request for cost data. These providers reported data
                      for at least one of the following requests: (1) annual expenditures on
                      language access services, (2) expenditures by type of language access
                      service, (3) expenditures by LEP person, or (4) expenditures on staff
                      training for language assistance. Only three of these providers reported
                      all requested cost data.

                      The cost data reported by the 49 providers ranged widely. For example,
                      FY 2008 expenditures by one provider on interpreter services
                      totaled $50. On the other hand, another provider indicated its total FY
                      2008 costs for interpreter services were $779,494. Data for cost per LEP
                      person for interpreter services mirrored this wide range with one
                      provider reporting spending $0.33 per LEP person and another provider
                      reporting $1,500 per LEP person.

                      Providers’ comments about how they calculated the data indicated that
                      the wide range of costs might be the result of different approaches to
                      calculating costs rather than a reflection of varying levels of service.
                      For example, some providers reported capturing cost data at the
                      organizational level rather than at the facility level and were unable to
                      break out the data by facility. In addition, some providers indicated
                      that they were unable to exclude salary costs (e.g., for bilingual
                      employees) from cost data on language access services.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   24
   R E C O M M E N D A T I O N S

                  Sixty-nine percent of Medicare providers in counties with a high
                  percentage of LEP persons conducted the four-factor assessment
                  recommended by OCR guidance when determining what language
                  access services to offer. However, only 33 percent of providers offered
                  services consistent with all four CLAS standards on language access
                  services.

                  OMH created the CLAS standards to guide providers to become more
                  responsive to the cultural and linguistic needs of diverse populations.
                  Providing language access services is crucial to ensuring access to
                  high-quality health care for LEP persons. Clear communication
                  between LEP persons and providers can lead to better health outcomes
                  for LEP persons.

                  The MIPPA requires OIG to make recommendations on improving
                  compliance with and enforcement of CLAS standards. However, in
                  keeping with our assessment of voluntary compliance, we make
                  recommendations to increase the percentage of providers that
                  voluntarily offer services consistent with all four CLAS standards on
                  language access services.

                  Providers that offered language access services consistent with the
                  CLAS standards were more likely to be familiar with them. This
                  indicates that educating providers on the standards may lead to an
                  increase in the percentage of providers offering language access services
                  consistent with CLAS standards.
                  To improve Medicare providers’ awareness and implementation of CLAS
                  standards, we recommend that:
                  OCR should inform providers about OMH’s CLAS standards
                  OCR should assist providers that receive Federal financial assistance in
                  offering high-quality language access services by informing them of
                  OMH’s CLAS standards. OCR could also inform providers about
                  associated OMH resources, such as the Health Care Languages Services
                  Implementation Guide. This could be done during civil rights reviews of
                  new Medicare providers, technical assistance interactions, and
                  complaint investigations involving LEP persons. During the civil rights
                  review process, OCR, unlike OMH, has direct contact with almost all
                  new Medicare providers that receive Federal financial assistance, such
                  as hospitals, nursing homes, and home health agencies. Therefore, OCR
                  has unique opportunities for education. OCR staff indicated that a
                  collaborative relationship with OMH already exists, and we encourage


OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   25
R   E C O        M M E N D A T                    I O N            S


                      the two offices to continue sharing resource information to assist
                      providers with serving LEP persons.
                      OMH should increase outreach to providers to familiarize them with CLAS
                      standards
                      OMH should increase provider awareness of the CLAS standards by
                      proactively educating them about this resource. OMH should be more
                      proactive in its outreach because providers that are seeking out OMH’s
                      online resources are likely already aware of the need to be culturally
                      and linguistically accessible. To be more proactive, OMH could lead an
                      effort to increase awareness among providers about CLAS standards.
                      OMH could collaborate with other HHS operating divisions that focus
                      on health care, including CMS, as well as work with provider
                      associations to disseminate the CLAS standards to providers.

                      The collaborative effort to inform providers about CLAS standards could
                      focus on educating providers on the specific Language Access Services
                      standards that providers were less likely to have implemented. To that
                      end, the effort could stress that the CLAS standards encourage
                      providers to (1) offer language access services during all hours of
                      operation; (2) inform LEP persons both verbally and in writing of their
                      right to receive language access services; (3) translate and post signs,
                      particularly directions to facility services; and (4) translate critical
                      materials.
                      In addition, we make the following recommendation to help Medicare
                      providers offer affordable and accurate language access services:
                      OMH should offer model translated written materials and signs to providers
                      One suggestion offered by providers was that information about how to
                      obtain already-translated materials be made available. To that end,
                      OMH should provide model standard language for some frequently used
                      written materials and signs in the languages of commonly encountered
                      groups. OMH could take the lead in collaborating with other HHS
                      operating divisions to develop model language for these materials. In
                      particular, OMH could focus on providing translated language for
                      critical documents. For example, OMH could provide language
                      explaining patients’ rights to language access services. After
                      development, OMH could make the model language available online
                      through its Center.
                      A number of benefits could be realized if OMH assisted providers with
                      model translated written materials and signs. OMH could reduce the
                      financial burden on providers, which in turn could help increase the

    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   26
R   E C O        M M E N D A T                    I O N            S


                      percentage of providers that offer translated materials. In addition,
                      OMH would be ensuring the accuracy of critical patient-related
                      documents offered to LEP persons.


                      AGENCIES’ COMMENTS AND OFFICE OF INSPECTOR
                      GENERAL RESPONSE
                      OCR and OMH concurred with our recommendations. OMH stated that
                      it will take the lead in developing specific marketing strategies to
                      inform providers of the CLAS standards. CMS indicated that it did not
                      have any substantive comments. However, it did provide technical
                      comments that we incorporated as appropriate.
                      For the full text of the agencies’ comments, see Appendix F.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   27
   A P P E N D I X                          ~             A

                  Section 187 of the Medicare Improvements for Patients and
                  Providers Act of 2008


                  SEC. 187. OFFICE OF THE INSPECTOR GENERAL REPORT ON
                  COMPLIANCE WITH AND ENFORCEMENT OF NATIONAL
                  STANDARDS ON CULTURALLY AND LINGUISTICALLY
                  APPROPRIATE SERVICES (CLAS) IN MEDICARE.

                  (a) REPORT.—Not later than two years after the date of the enactment
                  of this Act, the Inspector General of the Department of Health and
                  Human Services shall prepare and publish a report on—
                     (1) the extent to which Medicare providers and plans are complying
                     with the Office for Civil Rights’ Guidance to Federal Financial
                     Assistance Recipients Regarding Title VI Prohibition Against
                     National Origin Discrimination Affecting Limited English Proficient
                     Persons and the Office of Minority Health’s Culturally and
                     Linguistically Appropriate Services Standards in health care; and

                     (2) a description of the costs associated with or savings related to the
                     provision of language services. Such report shall include
                     recommendations on improving compliance with CLAS Standards
                     and recommendations on improving enforcement of CLAS Standards.

                  (b) IMPLEMENTATION.—Not later than one year after the date of
                  publication of the report under subsection (a), the Department of Health
                  and Human Services shall implement changes responsive to any
                  deficiencies identified in the report.




OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   28
   A P P E N D I X                          ~             B

                  Culturally and Linguistically Appropriate Services in Health Care
                  Standards 49


                  Standard 1. Health care organizations should ensure that
                  patients/consumers receive from all staff members effective,
                  understandable, and respectful care that is provided in a manner
                  compatible with their cultural health beliefs and practices and preferred
                  language.
                  Standard 2. Health care organizations should implement strategies to
                  recruit, retain, and promote at all levels of the organization a diverse
                  staff and leadership that are representative of the demographic
                  characteristics of the service area.
                  Standard 3. Health care organizations should ensure that staff at all
                  levels and across all disciplines receive ongoing education and training
                  in culturally and linguistically appropriate service delivery.
                  Standard 4. Health care organizations must offer and provide language
                  assistance services, including bilingual staff and interpreter services, at
                  no cost to each patient/consumer with limited English proficiency at all
                  points of contact, in a timely manner during all hours of operation.
                  Standard 5. Health care organizations must provide to
                  patients/consumers in their preferred language both verbal offers and
                  written notices informing them of their right to receive language
                  assistance services.
                  Standard 6. Health care organizations must assure the competence of
                  language assistance provided to limited English proficient
                  patients/consumers by interpreters and bilingual staff. Family and
                  friends should not be used to provide interpretation services (except on
                  request by the patient/consumer).
                  Standard 7. Health care organizations must make available easily
                  understood patient-related materials and post signage in the languages
                  of the commonly encountered groups and/or groups represented in the
                  service area.




                    49 Office of Minority Health,National Standards on Culturally and Linguistically
                  Appropriate Services in Health Care (CLAS), March 2001. Accessed at
                  http://minorityhealth.hhs.gov on February 12, 2010.



OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   29
A   P   P E N D       I X        ~          B


                      Standard 8. Health care organizations should develop, implement, and
                      promote a written strategic plan that outlines clear goals, policies,
                      operational plans, and management accountability/oversight
                      mechanisms to provide culturally and linguistically appropriate
                      services.
                      Standard 9. Health care organizations should conduct initial and
                      ongoing organizational self-assessments of CLAS-related activities and
                      are encouraged to integrate cultural and linguistic competence-related
                      measures into their internal audits, performance improvement
                      programs, patient satisfaction assessments, and outcomes-based
                      evaluations.
                      Standard 10. Health care organizations should ensure that data on the
                      individual patient’s/consumer’s race, ethnicity, and spoken and written
                      language are collected in health records, integrated into the
                      organization’s management information systems, and periodically
                      updated.
                      Standard 11. Health care organizations should maintain a current
                      demographic, cultural, and epidemiological profile of the community as
                      well as a needs assessment to accurately plan for and implement
                      services that respond to the cultural and linguistic characteristics of the
                      service area.
                      Standard 12. Health care organizations should develop participatory,
                      collaborative partnerships with communities and utilize a variety of
                      formal and informal mechanisms to facilitate community and
                      patient/consumer involvement in designing and implementing
                      CLAS-related activities.
                      Standard 13. Health care organizations should ensure that conflict and
                      grievance resolution processes are culturally and linguistically sensitive
                      and capable of identifying, preventing, and resolving cross-cultural
                      conflicts or complaints by patients/consumers.
                      Standard 14. Health care organizations are encouraged to regularly
                      make available to the public information about their progress and
                      successful innovations in implementing the CLAS standards and to
                      provide public notice in their communities about the availability of this
                      information.




    OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   30
         A P P E N D I X                          ~             C

                        Categories of Responses to Key Survey Questions
Office for Civil Rights (OCR) Factor 1 Question: Which of the following sources of information
does your organization use to determine the number or proportion of Limited English Proficient
(LEP) persons from each language group represented in its geographic service area?

      a) Census data
      b) Community assessment conducted by a community organization
      c) Community assessment conducted by your organization
      d) County or State health status reports
      e) Medicare data
      f) Patient utilization data
      g) School enrollment profiles
      h) Other (please specify)

OCR Factor 2 Question: Which of the following sources of information does your organization
use to track how often it encounters LEP persons?

      a) Patient database
      b) Patient medical records
      c) Other (please specify)

OCR Factor 3 Question: When determining whether to communicate with LEP persons in their
preferred language, does your organization consider the importance and urgency of the activity,
program, or service to people’s lives?

      a) We provide language access services in all situations.
      b) We consider the importance and urgency of the situation when determining what
         language access services to provide.

OCR Factor 4 Question: How does your organization assess whether it has resources available
to provide language access services?

      a) Assess availability of bilingual staff
      b) Assess available technology
      c) Determine whether outside funding is available
      d) Examine operating funds to determine whether money is available
      e) Review available community resources
      f) Other (please specify)




      OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   31
   A   P   P E N D       I X        ~          C


Culturally and Linguistically Appropriate Services in Health Care (CLAS) Standard 4 Question:
During what percentage of your organization’s business hours are language access services
offered?

       a) All (100%)
       b) More than 50% but less than 100%
       c) Less than or equal to 50%
       d) Organization does not offer language access services

CLAS Standard 5 Question: Does your organization inform LEP persons of their right to receive
language access services in their preferred language in any of the following ways?
       a) Given copies of language access rights materials in their preferred language
       b) Referred to posted and translated signs about language access services
       c) Told verbally during check-in process
       d) Other (please specify)

CLAS Standard 6 Question: Which of the following training topics does your organization
require for staff, contractors, and volunteers?

       a) Cultural competence
       b) Demographic data of communities served
       c) How to collect data on primary language from LEP persons
       d) How to respond to people who do not speak English
       e) Information related to written policies and procedures regarding language access
           services
       f) Language skills
       g) Use of “I Speak” cards or other communication aids
       h) Use of family members or friends as interpreters
       i) Use of minor children as interpreters
       j) Other (please specify)




       OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   32
   A   P   P E N D       I X        ~          C


CLAS Standard 7 Question 1: Which of the following written materials are translated into the
languages of commonly encountered groups?

       a) Advance directives
       b) Applications to receive services
       c) Community resources
       d) Complaint forms
       e) Discharge instructions
       f) Explanations of screening, diagnosis, or treatment options
       g) Facility menus
       h) Financial assistance forms
       i) Illness-related education
       j) Informed consent documents
       k) Intake forms
       l) “I Speak” cards or other communication aids
       m) Medication management and prescription directions
       n) Notice of language access services
       o) Patients’ rights information
       p) Wellness-related education
       q) Other (please specify)

CLAS Standard 7 Question 2: Which of the following types of signs are posted in the languages
of commonly encountered groups?

       a) Available services
       b) Business hours
       c) Conflict and grievance procedures
       d) Directions to facility services (such as admissions, pediatrics, emergency room, etc.)
       e) Explanation of right to language access
       f) Patients’ rights information
       g) Other (please specify)




       OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   33
                A P P E N D I X                                    ~           D
                                            Estimates and Confidence Intervals
Table D-1: Estimates of Survey Responses

                                                                                                                 Point              95-Percent
Estimate Description                                                                        Sample Size
                                                                                                              Estimate      Confidence Interval



Percentage of providers that conducted the four-factor assessment
recommended by Office for Civil Rights (OCR) guidance when                                          119            68.9           60.5%–77.3%
determining whether to offer language access services


Percentage of providers that conducted the assessment recommended
                                                                                                     82            85.4           77.6%–93.1%
by OCR guidance that reported being familiar with it


Percentage of providers that did not conduct the four-factor assessment
                                                                                                     35            40.0           23.5%–56.5%
recommended by OCR guidance but reported being familiar with it


Percentage of providers that did not complete all four OCR factors                                  119            31.1           22.7%–39.5%


Percentage of providers that completed at least three of the four OCR
                                                                                                    119            84.0           77.4%–90.7%
factors


Percentage of providers that completed at least one of the four OCR
                                                                                                    119            97.5           92.8%–99.5%*
factors


Percentage of providers that completed three OCR factors                                            119            15.1             8.6%–21.7%

Percentage of providers that completed two OCR factors                                              119             9.2             4.0%–14.5%

Percentage of providers that completed one OCR factor                                               119             4.2              0.5%–7.9%

Percentage of providers that completed no OCR factors                                               119             2.5             0.5%–7.2%*


Percentage of providers that reported determining the number or
proportion of Limited English Proficient (LEP) persons they were eligible
                                                                                                    119            78.2           70.6%–85.7%
to serve or likely to encounter in their geographic service areas (OCR
Factor 1)



Percentage of providers that reported determining the frequency of
                                                                                                    119            79.8           72.5%–87.1%
contact with LEP persons (OCR Factor 2)


Percentage of providers that reported considering the situation when
determining what language access services to provide or reported                                    119            91.6           86.5%–96.7%
offering services in all situations (OCR Factor 3)


Percentage of providers that reported assessing available resources for
                                                                                                    119            94.1           89.8%–98.4%
offering language access services (OCR Factor 4)

*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                            continued on next page



        OEI-05-10-00050             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS              34
   A    P   P E N D           I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                                             Point              95-Percent
Estimate Description                                                                    Sample Size
                                                                                                          Estimate      Confidence Interval



Percentage of providers that reported using patient utilization data to
determine the number of LEP persons represented in their geographic                             118            61.0           52.1%–69.9%
service areas



Percentage of providers that reported using Census data to determine
the number of LEP persons represented in their geographic service                               118            44.9           35.8%–54.0%
areas



Percentage of providers that reported using community assessments
conducted by their organizations to determine the number of LEP                                 118            30.5           22.1%–38.9%
persons represented in their geographic service areas



Percentage of providers that reported using Medicare data to determine
the number of LEP persons represented in their geographic service                               118            29.7           21.3%–38.0%
areas



Percentage of providers that reported using county or State health
status reports to determine the number of LEP persons represented in                            118            23.7           15.9%–31.5%
their geographic service areas



Percentage of providers that reported using community assessments
conducted by community organizations to determine the number of LEP                             118            15.3             8.7%–21.8%
persons represented in their geographic service areas



Percentage of providers that reported using school enrollment data to
determine the number of LEP persons represented in their geographic                             118             6.8             2.2%–11.4%
service areas



Percentage of providers that reported using multiple sources to
determine the number of LEP persons represented in their geographic                              93            71.0           61.6%–80.4%
service areas



Percentage of providers that reported using patient utilization data as
their only information source to determine the number of LEP persons                             93            17.2             9.4%–25.0%
represented in their geographic service areas


Percentage of providers that reported monitoring changes in the LEP
                                                                                                114            45.6           36.3%–54.9%
population represented in their geographic service areas


Percentage of providers that reported annually monitoring changes in
                                                                                                114            34.2           25.4%–43.1%
the LEP population represented in their geographic service areas

                                                                                                                        continued on next page


       OEI-05-10-00050          GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS              35
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                                                 Point              95-Percent
Estimate Description                                                                        Sample Size
                                                                                                              Estimate      Confidence Interval


Percentage of providers that reported monitoring changes in the LEP
                                                                                                    114             9.6             4.1%–15.2%
population represented in their geographic service areas every 5 years


Percentage of providers that reported monitoring changes in the LEP
                                                                                                    114             1.8             0.2%–6.2%*
population represented in their geographic service areas every 10 years


Percentage of providers that reported using data collected from patient
                                                                                                    118            63.6           54.7%–72.4%
databases when determining the frequency of contact with LEP persons


Percentage of providers that reported using data from patient medical
                                                                                                    118            61.9           53.0%–70.8%
records when determining the frequency of contact with LEP persons


Percentage of providers that reported using data from both patient
databases and patient medical records when determining the frequency                                118            49.2           40.0%–58.3%
of contact with LEP persons


Percentage of providers that reported assessing the importance and
                                                                                                    118            15.3             8.7%–21.8%
urgency of their programs, activities, and services


Percentage of providers that reported offering language access services
                                                                                                    118            77.1           69.4%–84.8%
in all types of situations regardless of importance and urgency


Percentage of providers that offered language access services
consistent with all four Culturally and Linguistically Appropriate Services                         119            32.8           24.2%–41.3%
in Health Care (CLAS) standards on language access services


Percentage of providers that offered some language access services                                  119            98.3          94.1%–99.8%*


Percentage of providers that offered language access services
consistent with the CLAS standards that reported being familiar with                                 39            82.1           69.8%–94.3%
them



Percentage of providers that offered language access services that
were not consistent with CLAS standards that reported being familiar                                 78            55.1           43.9%–66.3%
with them


Percentage of providers that reported offering language access services
                                                                                                    119            63.9           55.1%–72.6%
during all business hours (CLAS Standard 4)

*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                            continued on next page




        OEI-05-10-00050             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS              36
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                                                 Point              95-Percent
Estimate Description                                                                        Sample Size
                                                                                                              Estimate      Confidence Interval


Percentage of providers that reported informing LEP persons verbally
and in writing of their right to receive language access services (CLAS                             119            52.1           43.0%–61.2%
Standard 5)


Percentage of providers that reported requiring training for staff,
contractors, and volunteers on language access services (CLAS                                       119            85.7           79.3%–92.1%
Standard 6)



Percentage of providers that reported translating materials and posting
signs in the languages of commonly encountered groups (CLAS                                         119            71.4           63.2%–79.7%
Standard 7)


Percentage of providers that reported offering language access services
                                                                                                    116            14.7             8.1%–21.2%
during more than half of their business hours


Percentage of providers that reported notifying LEP persons only
                                                                                                    104            23.1           14.8%–31.3%
verbally at check-in of their right to receive language access services


Percentage of providers that reported notifying LEP persons only in
                                                                                                    104            15.4             8.3%–22.4%
writing of their right to receive language access services


Percentage of providers that reported requiring training for staff,
contractors, and volunteers on the use of family members or friends as                              119            69.7           61.4%–78.1%
interpreters


Percentage of providers that reported requiring training for staff,
                                                                                                    119            27.7           19.6%–35.9%
contractors, and volunteers on the use of minor children as interpreters


Percentage of providers that reported formally testing the skills and
competencies of staff, contractors, and volunteers in providing language                            119            38.7           29.8%–47.5%
access services



Percentage of providers that reported translating at least one type of
patient-related written materials into the languages of commonly                                    119            89.1           83.4%–94.8%
encountered groups


Percentage of providers that reported translating at least one critical
                                                                                                    119            88.2           82.4%–94.1%
document into the languages of commonly encountered groups


Percentage of providers that reported translating all critical documents
                                                                                                    119             8.4             3.3%–13.5%
into the languages of commonly encountered groups

*Confidence interval calculated with an exact method based on the binomial distribution.

                                                                                                                            continued on next page


        OEI-05-10-00050             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS              37
   A    P   P E N D            I X         ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                                             Point              95-Percent
Estimate Description                                                                    Sample Size
                                                                                                          Estimate      Confidence Interval


Percentage of providers that reported that they either posted translated
                                                                                                117            78.6           71.1%–86.2%
signs or that posting signs was not applicable to their organization


Percentage of providers that reported posting signs in the languages of
                                                                                                117            68.4           59.8%–76.9%
commonly encountered groups


Percentage of providers that reported that posting signs was not
                                                                                                117            10.3             4.7%–15.8%
applicable to their organizations


Percentage of providers that reported benefits to providing language
                                                                                                119            73.1           65.0%–81.2%
access services


Percentage of providers that reported improved communication as a
                                                                                                119            65.5           56.9%–74.2%
benefit


Percentage of providers that reported improved adherence to treatment
                                                                                                119            58.0           49.0%–67.0%
regimen as a benefit


Percentage of providers that reported improved diagnosis and treatment
                                                                                                119            51.3           42.1%–60.4%
as a benefit


Percentage of providers that reported fewer complaints as a benefit                             119            51.3           42.1%–60.4%


Percentage of providers that reported fewer adverse events and medical
                                                                                                119            45.4           36.3%–54.5%
errors as a benefit


Percentage of providers that reported fewer emergency visits as a
                                                                                                119            26.1           18.0%–34.1%
benefit


Percentage of providers that reported reduced length of patient visits as
                                                                                                119            21.8           14.3%–29.4%
a benefit


Percentage of providers that reported improved billing and collections as
                                                                                                119            20.2           12.9%–27.5%
a benefit


Percentage of providers that reported fewer facility readmissions as a
                                                                                                119            16.8           10.0%–23.6%
benefit


Percentage of providers that reported reduced length of facility stays as
                                                                                                119            11.8             5.9%–17.6%
a benefit

                                                                                                                        continued on next page




       OEI-05-10-00050          GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS              38
    A    P    P E N D             I X          ~          D


Table D-1: Estimates of Survey Responses, continued

                                                                                                                 Point              95-Percent
Estimate Description                                                                        Sample Size
                                                                                                              Estimate      Confidence Interval


Percentage of providers that reported saving money by providing
                                                                                                    119             1.7            0.2%–5.9%*
language access services


Percentage of providers that reported that they did not know whether
                                                                                                    119            52.9           43.8%–62.0%
they saved money by providing language access services


Percentage of providers that reported obstacles to providing language
                                                                                                    111            54.1           44.6%–63.5%
access services


Percentage of providers that reported a lack of training resources for
                                                                                                    111            32.4           23.6%–41.3%
staff as an obstacle


Percentage of providers that reported the cost of providing language
                                                                                                    111            27.0           18.6%–35.4%
access services as an obstacle


Percentage of providers that reported the broad range of languages
                                                                                                    111            26.1           17.8%–34.4%
spoken in the community as an obstacle


Percentage of providers that reported liability concerns as an obstacle                             111            20.7           13.1%–28.4%

Percentage of providers that reported being understaffed as an obstacle                             111            18.0           10.8%–25.3%


Percentage of providers that reported staff discomfort in providing
                                                                                                    111            14.4            7.8%–21.1%
language access services as an obstacle


Percentage of providers that reported a lack of means for staff to identify
                                                                                                    111             6.3            1.7%–10.9%
LEP persons as an obstacle


Percentage of providers that reported receiving reimbursement for
                                                                                                    119             2.5            0.5%–7.2%*
providing language access services


Percentage of providers that reported that it would be useful to have
                                                                                                    111            45.0           35.6%–54.4%
additional assistance in implementing language access services

*Confidence interval calculated with an exact method based on the binomial distribution.

Source: Office of Inspector General analysis of provider survey responses, 2010.




        OEI-05-10-00050             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS             39
    A P P E N D                   I X             ~          E
            A P P E N D I X                                      ~             E

                                              Supplemental Analysis Tables

Table E-1: Available Resources That Providers Reported Assessing
                                                                                                                Percentage of           95-Percent
Available Resources*                                                                           Sample Size
                                                                                                                    Providers   Confidence Interval

Bilingual staff                                                                                        119              89.1%         83.4%–94.8%

Technology                                                                                             119              63.0%         54.2%–71.8%

Community resources                                                                                    119              63.0%         54.2%–71.8%

Operating funds to determine whether money is available                                                119              33.6%         25.0%–42.2%

Outside funding                                                                                        119              22.7%         15.1%–30.3%

*Choices are not mutually exclusive.

Source: Office of Inspector General (OIG) analysis of provider survey responses, 2010.



Table E-2: Training Topics for Staff, Contractors, and Volunteers
                                                                                                                Percentage of           95-Percent
Training Topics*                                                                               Sample Size
                                                                                                                    Providers   Confidence Interval

Use of family members or friends as interpreters                                                       119              69.7%         61.4%–78.1%

How to respond to people who do not speak English                                                      119              68.9%         60.5%–77.3%

Written policies and procedures regarding language access services                                     119              59.7%         50.7%–68.6%

Cultural competence                                                                                    119              58.0%         49.0%–67.0%


How to collect data on primary language from Limited English Proficient
                                                                                                       119              37.8%         29.0%–46.7%
persons


Language skills                                                                                        119              36.1%         27.4%–44.9%

Use of "I-Speak" cards or other communication aids                                                     119              28.6%         20.3%–36.8%

Demographic data of communities served                                                                 119              27.7%         19.6%–35.9%

Use of minor children as interpreters                                                                  119              27.7%         19.6%–35.9%

*Choices are not mutually exclusive.

Source: OIG analysis of provider survey responses, 2010.




        OEI-05-10-00050                GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS          40
    A P P E N D                    I X            ~          E


Table E-3: Testing Topics Providers Reported Covering
                                                                                                                Percentage of           95-Percent
Testing Topics*                                                                                Sample Size
                                                                                                                    Providers   Confidence Interval

Confidentiality requirements                                                                           119              33.6%         25.0%–42.2%

Medical terminology                                                                                    119              33.6%         25.0%–42.2%

Policies and procedures                                                                                119              30.3%         21.9%–38.6%

Ability to interpret effectively                                                                       119              27.7%         19.6%–35.9%

Proficiency in English and non-English languages                                                       119              26.9%         18.8%–35.0%

*Choices are not mutually exclusive.

Source: OIG analysis of provider survey responses, 2010.




        OEI-05-10-00050                GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS          41
    A P P E N D                   I X             ~          E


Table E-4: Materials That Providers Reported Translating

Material                                                                                                Percentage of              95-Percent
                Translated Material*                                                   Sample Size
Type                                                                                                        Providers      Confidence Interval


                Patients' rights information                                                   119             75.6%             67.8%–83.5%

                Advance directives                                                             119             65.5%             56.9%–74.2%

                Informed consent documents                                                     119             58.8%             49.9%–67.8%

                Complaint forms                                                                119             52.9%             43.8%–62.0%

                Illness-related education                                                      119             52.9%             43.8%–62.0%

                Notice of language access services                                             119             52.1%             43.0%–61.2%


Critical        Medication management and prescription
                                                                                               119             50.4%             41.3%–59.5%
                directions


                Discharge instructions                                                         119             47.9%             38.8%–57.0%

                Applications to receive services                                               119             43.7%             34.7%–52.7%


                Explanations of screening, diagnosis, or
                                                                                               119             42.0%             33.0%–51.0%
                treatment options


                Financial assistance forms                                                     119             37.8%             29.0%–46.7%

                Intake forms                                                                   119             36.1%             27.4%–44.9%

                Community resources                                                            119             47.9%             38.8%–57.0%

                Wellness-related education                                                     119             44.5%             35.5%–53.6%
Noncritical
                "I-Speak" cards or other communication aids                                    119             33.6%             25.0%–42.2%

                Facility menus                                                                 119             24.4%             16.5%–32.2%

*Choices are not mutually exclusive.
Source: OIG analysis of provider survey responses, 2010.




           OEI-05-10-00050             GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS             42
    A P P E N D                   I X             ~          E


Table E-5: Signs That Providers Reported Posting in Commonly Encountered
Languages
                                                                                                                Percentage of           95-Percent
Types of Signs*                                                                                Sample Size
                                                                                                                    Providers   Confidence Interval

Patients' rights information                                                                           117              61.5%         52.6%–70.5%

Conflict and grievance procedures                                                                      117              44.4%         35.3%–53.6%

Available services                                                                                     117              37.6%         28.7%–46.5%

Explanation of right to language access services                                                       117              38.5%         29.5%–47.4%

Business hours                                                                                         117              36.8%         27.9%–45.6%

Directions to facility services                                                                        117              21.4%         13.8%–28.9%

*Choices are not mutually exclusive.

Source: OIG analysis of provider survey responses, 2010.




        OEI-05-10-00050                GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS          43
    A P PEN 0                              x                F


     Agencies' Comments



           ~~"J.YIC&l.V~



       (          ~          DEPARTMENT OF HEALTH &. HUMAN SERVICES                              Office of the Secretary

        "'....:~-                                                                                Director
                                                                                                 Office for Ctvit Rights
                                                                                                 Weshington, DC 20201




                           DATE:         May 27, 2010

                           TO:           Daniel R. Levinson
                                         Inspector General

                           FROM:         Georgina C. Verdugo
                                         Director

                           SUBJECT:      Office ofInspector General (orG) Draft Reports: "Guidance and
                                         Standards on Language Access Services: Medicare Providers"
                                         (OEI-05-10-00050)


                           Thank you for the opportunity to review and respond to the orG Draft Report: Guidance
                           and Standards on Language Access Services: Medicare Providers (OEI-05-10-00050).

                           The Office for Civil Rights (OCR) at the U.S. Department of Health and Human Services
                           (HHS) appreciate orG's efforts to determine the extent to which Medicare providers
                           utilize the HHS Guidance to Federal Financial Assistance Recipients Regarding Title VI
                           Prohibition Against National Origin Discrimination Affecting Limited English Projicient
                           Persons and Office of Minority Health's Culturally and Linguistically Appropriate
                           Services (CLAS) standards. OCR also commends the OIG inspection team for both their
                           thoroughness and professionalism during the review,

                           OCR concurs with the report's findings and recommendations and offers no comment.


                                                                             /S/
                                                                      Georgina C. Verdugo
                                                                      Director




OEI·05·10·00050               GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:        MEDICARE PROVIDERS                44
A P PEN            D        x                 F




                          DEPARTMENT OF HEALTH AND HUMAN SERVICES 	                                        Office of the Secretary
                                                                                                           Office of Public Health and Science
                          ------------------------------------------1l1li
                                                                                                           Office of Minority Health
                                                                                                           Washington. D.C. 20201


                       DATE: 	          May 26, 2010

                       TO: 	            Daniel R. Levinson
                                        Inspector General


                                                  /S/
                       FROM: 	          Ga'tth N. Grhham, M.D., M.P,H.
                                        Deputy Assistant Secretary for Minority Health
                                        Office of Minority Health
                                        Office ofthe Secretary

                       SUBJECT: 	       OIG Draft Reports: Guidance and Standards on Language Access Services:
                                        Medicare Providers, OEI-05-10-00050

                       Thank you for the opportunity to review and respond to the OIG draft report. We appreciate
                       OIG's efforts to examine the extent Medicare Providers are fulfilling the requirements of
                       (I) OCR's Guidance to federal Financial Assistance Recipients Regarding Title VI Prohibition
                       Against National Origin Discrimination Affecting Limited English Proficient Persons (OCR
                       guidance) and (2) OMH's CLAS standards.

                       Based on Ollr review of the report, our responses will only focus on those areas that apply to the
                       CLAS Standards.

                       OIG Recommendation: Medicare Providers: OEI-OS-1 0-00050

                           • 	 OMH should increase outreach to providers to familiarize them with CLAS 

                               standards. 


                                       OMH could collaborate with other HHS operating divisions that foclls on health
                                       carc, including CMS, as well as work with provider associations to disseminate
                                       the CLAS standards to providers.

                           • 	 OMH should offer model translated written materials and signs to providers 

                                       OMH could take the lead in collaborating with other HHS operating divisions to 

                                       develop model language for these materials. 


                       OMH conCllrs with OIG's recommendations. The OMH will take the lead in devcloping specific
                       marketing strategies to inform providers of the CLAS standards. Additionally, OMH will
                       facilitate the development of spccific translated materials and signage for providers in
                       collaboration with other JIBS operating divisions.




                                                           U.S. Public Health Service




 OEI·05·10·00050          GUIDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:                MEDICARE PROVIDERS                         45
A P PEN            D        x              F




                       DEPARTMENT OF HEALTH & HUMAN SERVICES                                  Centers for Medicare & Medicaid Services


                                                                                              Office of the Administrator
                                                                                              Washington. DC 20201




                   DATE: 	        MAY 20 2010
                   TO: 	          Dariel R. Levinson
                                  Inspecto.r.DeneraJ
                                                    /S/
                   FROM: 	        Maril..y~ 'l\avenner
                                  Acting ~ministrator and Chief Operating Officer

                   SUBJECT: 	 Office oflnspector General (OlG) Draft Report: "Guidance and Standards on
                              Language Access Services: Medicare Providers" (OEI-05-10-00050)


                   Thank you for the opportunity to review and comment on the OlG draft report entitled,
                   "Guidance and Standards on Language Access Services: Medicare Providers" (OEl-05-l 0­
                   00050). This is to notify you that the Centers for Medicare & Medicaid Services has reviewed
                   the subject draft report, and we have no substantive comments. We are attaching technical
                   comments for your consideration.

                   We appreciate the effort that went into this report and look forward to working with the OIG on
                   this and other issues related to language access services.

                   Attachment




 OEI·05·10·00050           GUtDANCE AND STANDARDS ON LANGUAGE ACCESS SERVICES:      MEDICARE PROVIDERS                          46
   A C K N O W L E D G M E N T S

                  This report was prepared under the direction of Ann Maxwell, Regional
                  Inspector General for Evaluation and Inspections in the Chicago
                  regional office, and Thomas F. Komaniecki, Deputy Regional Inspector
                  General.

                  Nicole Hrycyk served as the team leader for this study and Meghan
                  Kearns served as the project lead. Other principal Office of Evaluation
                  and Inspections staff from the Chicago regional office who contributed
                  to the report include Melissa Baker, Benjamin Dieterich, Ericka
                  Kilburn, Margo Rodriguez, and Mark Stiglitz; central office staff who
                  contributed include Heather Barton and Kevin Farber.




OEI-05-10-00050   GUIDANCE   AND   S TA N D A R D S   ON   LANGUAGE ACCESS SERVICES: MEDICARE PROVIDERS   47
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
